USAID
OFFICE OF INSPECTOR GENERAL

Audit of USAID’s Credit Program and Related Internal
Controls for Fiscal Year 2000

Audit Report No. 0-000-01-002-F


February 15, 2001




                                               U.S. Agency for
                                    International Development
U.S. AGENCY FOR
 INTERNATIONAL
  DEVELOPMENT




        MEMORANDUM FOR CFO, Michael T. Smokovich

        FROM:          IG/A/FA, Alvin A. Brown

        SUBJECT:       Independent Auditor’s Report on USAID’s Credit Program and Related
                       Internal Controls for Fiscal Year 2000. Report No. 0-000-01-002-F

        This memorandum audit report is our report on U.S. Agency for International Development’s
        (USAID’s) Credit Program. This report is part of our review of its consolidated financial
        statements as required by the Government Management and Reform Act of 1994. This act
        requires USAID to prepare and submit audited financial statements to the Office of
        Management and Budget (OMB) for the preceding fiscal year that cover all accounts and
        associated activity of the agency.

        This report is one in a series of reports that communicate the results of our audits conducted
        on the selected line items reported in the USAID fiscal year 2000 balance sheet. The audit
        was performed to determine whether USAID established adequate internal controls to
        compute and report its credit program account balances as of September 30, 2000. We
        determined that USAID did establish adequate internal controls to compute and report its
        Credit Program account balances as of September 30, 2000. However, we identified a
        reportable condition relating to USAID’s Credit Program loans receivable.

        We received and considered your comments provided to the draft report. This report makes
        one recommendation to improve USAID’s accounting for its loan portfolio and strengthen
        related internal controls. Based on your comments to the draft report, we acknowledge your
        agreement and action taken, we accept your management decision and the correction action
        taken as final action for the audit recommendation. See Appendix II for USAID
        Management’s comments.

        I would like to express my sincerest appreciation for the courtesies extended by your staff to
        the auditors.
Background
In previous years, the Office of Inspector General’s (OIG) ability to express an opinion was
impaired by inadequate financial accounting and performance measurement systems, and
related material weaknesses in internal controls. The OIG concluded that these deficiencies
                                    1
in the financial accounting systems created consequential risks that the financial statements
including the performance overview information could contain material misstatements. The
amount of substantive testing required to express an opinion on the fairness of the financial
statements would have been prohibitive and unattainable by the statutory deadline of
March 1 for submitting the audited financial statements to OMB. Accordingly, the OIG did
not express an opinion on the fairness of the financial statements.

As a result of the problems noted in previous years’ audits, the OIG agreed with USAID to
focus our fiscal year 1999 audit efforts on the material line items on its balance sheet. This
agreement held true for our fiscal year 2000 audit.

USAID administers a large portfolio of loans and loan guarantees extended to foreign
governments and foreign non-government entities. The loan service includes receipt and
disbursement of funds, loan accounting, collections, maintenance of documents and financial
management reporting. USAID’s Credit Program loan portfolio consists of direct loans,
loans fully guaranteed by USAID, and portfolios of loans having partial guarantee.

Direct Loans

USAID manages a portfolio of over 2,000 direct loans with outstanding balances in excess of
$10 billion dollars. USAID made these loans to borrowers in approximately 90 countries
under various foreign assistance programs dating back to the 1960’s. With a few exceptions,
no direct loans have been made by USAID since the mid 1980’s. Direct loans are issued in
both U.S. dollars and foreign currency.

Loan Guarantees

USAID co-signs loans that are made by commercial lenders under the Urban and
Environment Credit Program. The purpose of the program is to assist in providing long-term
financing for low-income shelter and neighborhood infrastructure-upgrading programs in
developing countries and to stimulate the participation of the private sector in the economic


         1
                  According to OMB Circular A-127 and the Chief Financial Officers’ Act, a financial
management system includes supporting systems that contain the information needed to carry out financial
management functions, manage financial operations, and report financial status information. The systems
provide the information managers need to (1) carry out their fiduciary responsibilities, (2) deter fraud, waste,
and abuse; and (3) relate financial consequences to agency program performance. Thus, in addition to basic
accounting functions, USAID's financial management system includes supporting systems that perform
performance measurement, budget, and procurement functions.


                                                         2
development of lesser developed countries. In the case of borrower default, USAID is liable
for one hundred percent of the lenders’ unrecoverable loss.

USAID also provides partial guarantees of loans made by foreign financial institutions to
Micro and Small Enterprises in developing countries. The purpose is to encourage the
growth of small businesses and to extend the benefits of a market economy to lower income
citizens. There are currently 49 financial institutions in 20 foreign countries with portfolios
covered under the loan guarantee program.

In 1998, USAID entered into a contract with Riggs National Bank (Riggs Bank) to provide
loan servicing and financial management services for USAID’s loan portfolios. Riggs
Bank’s responsibilities include, but are not limited to, the following: 1) downloading daily
wire transfer data for loan collections; 2) preparing and sending Notice of Payment Due to all
borrowing countries; 3) receiving loan collections; 4) making claim payments; 5) reconciling
all accounts; 6) computing interest earned on fund balance; 7) updating loan status in the
Marshall & Ilsley Commercial Loan System (M&I system, which is hereafter referred to as
The subsidiary ledger); 8) preparing annual verification letters to all borrowers to confirm
outstanding loan balances; 9) preparing interim and annual reports; and 10) providing
external data calls to OMB, the U.S. Treasury, and the U.S. Department of State.

USAID Loan Management Division’s (USAID/LM’s) responsibilities include, but are not
limited to, the following: 1) administering the program and monitoring the contract with
Riggs Bank; 2) monitoring the conversion of two legacy loan systems – Loan Accounting
Information System and Housing Guaranty Portfolio Management System to Riggs Bank’s
loan system; 3) reviewing Notices of Payment Due; 4) receiving and disbursing funds;
5) verifying processed system transactions; 6) reviewing loan status reports provided by
Riggs Bank; 7) maintaining accounting records; 8) maintaining continuous communication
with Riggs Bank to resolve any and all post conversion issues; and 9) preparing financial
statements based on the reports generated through Riggs Bank’s loan system.

As of October 1, 1999, USAID’s legacy systems were discontinued when Riggs Bank’s loan
system became USAID’s subsidiary ledger for its loan portfolios.

At September 30, 2000, USAID’s Credit Program had total net receivables of about
$6.6 billion. Of the net receivable amount, direct loans accounted for approximately
$6.4 billion and guaranteed loans accounted for the remainder.




                                               3
The following shows the loan programs that are included in USAID’s Credit Program net
receivable balance:

        Direct Loan Program - $6.4 billion2
        Guaranteed Loan Program - $273.8 million3



                                                                 $273,823,000




                                                                $6,361,529,000


                                              Direct            Guaranty




        2
                 Direct Loan Program includes “direct” loans and “direct Micro and Small Enterprise
Development (MSED)” loans. This figure includes both Pre-Credit Reform and Post-Credit Reform loans. See
Footnote Disclosure (5) – Credit Program Receivables and Liabilities for Loan Guarantees – to the financial
statements.
        3
                  This amount represents defaulted guaranteed loans from Pre-1992 Guarantees. See Footnote
Disclosure (5) – Credit Program Receivables and Liabilities for Loan Guarantees – to the financial statements.

                                                       4
Audit Objective
This audit was performed to support the fiscal year 2000 Government Management Reform
Act (GMRA) audit of USAID’s consolidated financial statements. Consistent with our fiscal
year 1999 audit, USAID Office of Inspector General (OIG) agreed with the Office of
Financial Management that it would be advantageous for the fiscal year 2000 audit to
concentrate on selected major balance sheet line items. Accordingly, the following is the
objective of this audit:

       Did USAID Establish Adequate Internal Controls to Compute and Report its
       Credit Program Account Balances as of September 30, 2000?

The objectives of internal control are to provide management with reasonable, but not
absolute, assurance that the following objectives are met:

       S   Transactions are properly recorded and accounted for to permit the preparation of
           reliable financial reports and maintain accountability over assets;

       S   Funds, property, and other assets are safeguarded against loss from unauthorized
           acquisition, use, or disposition; and

       S   Transactions, including those related to obligations and costs, are executed in
           compliance with laws and regulations that could have a direct and material effect
           on the financial statements and other laws and regulations that the Office of
           Management and Budget, or USAID Management have identified as being
           significant and for which compliance can be objectively measured and evaluated.

Our consideration of internal control would not necessarily disclose all matters of internal
control over financial reporting that might be reportable conditions. Under standards issued
by the American Institute of Certified Public Accountants, reportable conditions are matters
coming to our attention relating to significant deficiencies in the design or operation of
internal control that, in our judgment, could adversely affect USAID’s ability to record,
process, summarize, and report financial data consistent with the assertions of management
in the financial statements. Material weaknesses are reportable conditions in which the
design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that errors or irregularities in amounts, which would be material
in relation to the financial statements being audited, may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions.

See Appendix I for a discussion about our audit scope and methodology.




                                               5
Audit Finding
Did USAID Establish Adequate Internal Controls to Compute and Report its Credit
Program Account Balances as of September 30, 2000?

Overall, we determined that USAID established adequate internal controls to compute and
report its Credit Program account balances as of September 30, 2000. However, we
identified a reportable condition relating to USAID’s Credit Program loans receivable. At
September 30, 2000, there was an absolute difference of approximately $459 million between
USAID’s general ledger and its subsidiary ledger. We identified an absolute difference of
approximately $316 million and USAID/LM identified an additional $143 million during the
year-end reconciliation. (See Appendix III for a summary of the differences that we
identified by loan program.)

These discrepancies occurred because of the following:

       S   Riggs Bank posted adjustments to its loan system throughout fiscal years 1999
           and 2000 under USAID Management’s direction.

       S   USAID/LM used the September 30, 1999 closing balances from its legacy
           systems and adjusted those balances, with only the current year’s activity
           recorded in USAID’s subsidiary ledger, to prepare its Credit Program trial balance
           for fiscal year 2000. USAID/LM did not record all the adjustments posted to its
           subsidiary ledger during 1999 and 2000.

Of the total differences ($459 million), USAID/LM was able to identify and reconcile an
absolute amount of approximately $366 million ($182 million net). USAID/LM made the
necessary adjustments for these differences. USAID/LM also posted a one-time unsupported
adjustment with an absolute value of approximately $93 million ($85 million net) for the
remaining unreconciled differences between USAID’s general ledger and its subsidiary
ledger. These entries were necessary to bring USAID’s general ledger into agreement with
its subsidiary ledger.

We agreed with the one-time adjustment that USAID/LM posted. However, we recommend
that USAID/LM make a footnote disclosure to the financial statements to explain the
adjustment. Thus, we propose the following recommendation to improve USAID’s reporting
for its loan portfolios.

       Recommendation: We recommend that the Office of Financial Management
       make a footnote disclosure in the financial statements stating that a one-time
       adjustment was made to the Loans Receivable account in the general ledger.




                                             6
Management Comments and Our Evaluation
USAID’s Management agreed with the finding and recommendation made in this report.
The Chief Financial Officer said that Management was delighted to note that, for the second
year in a row, the September 30, 2000 credit program account balances were accurate.
Management also modified Footnote 5 to the financial statements to disclose the one-time
adjustment to the credit program receivables as recommended.

Based on Management’s acceptance of the audit recommendation and action taken, we
accept your Management’s decision and the correction action taken as final action for the
audit recommendation.




                                              7
                                                                          APPENDIX I
                                                                            Page 1 of 2




                   SCOPE AND METHODOLOGY



Scope
We conducted our audit in accordance with generally accepted auditing standards. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the accounts audited are free from material misstatement.

Consistent with our fiscal year 1999 audit, USAID’s Office of Inspector General agreed with
the Office of Financial Management that it would be advantageous for the fiscal year 2000
audit to concentrate on selected major balance sheet items. Accordingly, the scope of this
audit was limited to the review of USAID’s Credit Program account balances as of
September 30, 2000. Therefore, this report does not contain an opinion about the fairness of
the statements taken as a whole.

At September 30, 2000, USAID’s Credit Program had total net receivables of about
$6.6 billion. The amount audited was $1.2 billion (or 18.6 percent). We conducted our audit
in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
accounts audited are free from material misstatement.

We obtained an understanding of the Credit Program account balances reported in USAID’s
fiscal year 2000 balance sheet. We determined whether the amounts were reasonably
accurate; whether applicable policies and procedures were established; and whether they had
been placed in operation to meet Generally Accepted Accounting Principle objectives and
other regulations. We considered all reasonable efforts made by USAID to improve the
management of the Credit Program and respond to our previous recommendations relating to
the operations of this portfolio.

A materiality threshold of 5 percent was calculated. Based on USAID’s fiscal year 1999 Net
Cost of Operations ($6.2 billion), any amount over $314 million will be considered material
and included in our review of USAID’s fiscal year 2000 Balance Sheet.


Methodology
In accomplishing our audit objective, we reviewed significant line items related to USAID’s
fiscal year 2000 balance sheet. These line items included advances, accounts payable, fund
balance with Treasury, and loans receivable. The purpose of this report is to communicate
                                                                              APPENDIX I
                                                                                Page 2 of 2
the results of our review of USAID’s Credit Program for the period ended
September 30, 2000. This report specifically addresses the issues identified in our review of
the Credit Program on the fiscal year 2000 balance sheet.

To accomplish our Credit Program audit objective, we:

   S   Obtained an understanding of the components of internal control and assessed the
       level of control risk relevant to the assertions embodied in the class of transactions,
       account balances, and disclosure components of the financial statements;

   S   Performed tests of compliance with laws and regulations that could have a direct and
       material effect on USAID’s Credit Program;

   S   Reviewed Riggs National Bank’s policies and procedures for servicing USAID loans;

   S   Conducted meetings with USAID/LMD and Riggs Bank officials;

   S   Statistically confirmed USAID loan account balances with all 10 borrowing
       countries;

   S   Judgmentally selected and tested loan collections for the month of March 2000; and

   S   Discussed the confirmed differences with Riggs National Bank.
                                                                                APPENDIX II
                                                                                  Page 1 of 1



                   USAID MANAGEMENT COMMENTS




                                                         February 1, 2001


MEMORANDUM

TO:             IG/A/FA, Alvin A. Brown

FROM:           CFO, Michael T. Smokovich

SUBJECT:        Audit of USAID’s Credit Program and Related Internal Controls for
                Fiscal Year 2000

        We have reviewed your draft report on the subject audit and agree with your findings and
recommendation. We are pleased to note that for the second year in a row you have determined that
the credit program balances are accurate. We modified Footnote 5 to the Financial Statements to
disclose the one-time adjustments to the credit program receivables.


        I would like to thank you and your staff for the professional and cooperative manner in which
the audit was conducted.


Cc: M/CFO, S. Owens
    M/CFO, T. Cully
    M/MPI, S. Malone-Gilmer
    M/FM/LM, M. Washington
    M/FM/LM, C. VandenAssem
    M/FM, D. Ostermeyer
    M/FM/CAR, T. Vapniarek
    M/FM/CAR, E. White




                                              1300 Pennsylvania Avenue, NW
                                                  Washington, DC 20523
                                                                       APPENDIX III
                                                                          Page 1 of 1
               Summary of Discrepancies by Loan Program (in millions)

Direct Loan Program

    Account Category         USAID Trial      Riggs Loan      Absolute $ Var.    % Var.
                               Balance         Records
 Interest Receivable                 344.2          378.4                 34.1         9%
 Loans Receivable                 10,269.2       10,126.0                143.2         1%
 Loans Rec’ble-MOV                    73.0           21.4                 51.6       241%
 Loans Rec’ble–N/MOV                  35.4           22.9                 12.5        54%
        Receivables               10,721.8       10,548.7                241.4         2%
 Actual Collections-Prin.            694.5          730.3                 35.8         5%
 Actual Collections–Int.             268.3          268.6                  0.3       0.1%
        Collections                  962.8          998.9                 36.1         4%
 Unapplied Collections                 9.9           16.9                  7.0        41%


Housing Guaranty Loan Program

    Account Category         USAID Trial      Riggs Loan      Absolute $ Var.    % Var.
                               Balance         Records
 Sub Claims Receivable               49.7            32.5                 17.2        53%
 Resked Claims Receivable           464.0           428.0                 36.0         8%
 Int. Rec’ble-Resked Loan            36.8            42.4                  5.6        13%
 Penalty Int Receivable              12.8             0.0                 12.8       100%
        Receivables                 563.3           502.9                 71.6        14%
 Actual Collections-Prin.            13.2            18.1                  4.9        27%
 Actual Collections-Int.             14.7            18.9                  4.2        22%
 Actual Collections-Fees              8.4             8.5                  0.1         1%
         Collections                 36.3            45.5                  9.2        20%
 Unapplied Collections               13.0             3.0                 10.0       300%


Micro and Small Enterprises Development (MSED) Program

    Account Category         USAID Trial      Riggs Loan      Absolute $ Var.    % Var.
                               Balance         Records
 Loans Receivable                     5.6             2.5                  3.1       124%


The total variance (in absolute value) for USAID’s Credit Program loans receivable
amounted to approximately $316 million ($241.4 + $71.6 + $3.1).
